Report No. D-2009-033            December 16, 2008




         Controls Over Billing Customers
           and Collecting Revenue for
               Work Performed at
           Corpus Christi Army Depot
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
APO                           Automated Parts Ordering
ATAAPS                        Automated Time Attendance and Production System
CCAD                          Corpus Christi Army Depot
DFAS                          Defense Finance and Accounting Service
DFAS-CO                       Defense Finance and Accounting Service Columbus
DFAS-RI                       Defense Finance and Accounting Service Rock Island
DOF                           Depot Overhaul Factor
FMR                           Financial Management Regulation
FTAC                          Financial Transaction Accounting Code
JV                            Journal Voucher
LMP                           Logistics Modernization Program
LSI                           Lear Siegler Services, Inc.
PAR                           Parts Analysis Report
PC                            Production Controller
PM&A                          Production Management and Analysis
QMD                           Quantitative Methods Directorate
SIFS                          Standard Industrial Fund System
SIMA                          Systems Integration and Management Activity
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON , VIRGINIA 22202-4704



                                                                      December 16, 2008


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/DoD CHIEF FINANCIAL OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               DIRECTOR, DEFENSE FlNANCE AND ACCOUNTlNG
                 SERVICE

SUBJECT: Report on Controls Over Billing Customers and Collecting Revenue for
         Work Perfonned at Corpus Christi Anny Depot (Report No. D-2009-033)


We are providing this report for review and comment. We considered comments from
Corpus Christi Army Depot and the Defense Finance and Accounting Service on a draft
of this report when we prepared the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments from Corpus Christi Anny Depot and the Defense Finance and Accounting
Service were partially responsive. Therefore, we request additional comments on
Recommendations A.4. and C.2. by January 16,2009.

Please provide comments that confonn to the requirements of DoD Directive 7650.3. If
possible, send your comments in electronic fonnat (Adobe Acrobat file only) to
AudDBO@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the I Signed I symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to
Mr. Cannelo G. Ventimiglia at (317) 510-4801, extension 275 (DSN 699-4801) or
Mr. Stephen C. Borushko at (317) 510-480 I, extension 221 (DSN 699-480 I). The team
members are listed inside the back cover.



                                            !~~d/IJ~
                                            Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
                    Report No. D-2009-033 (Project No. D2007-D000FI-0164.000)
                                        December 16, 2008

               Results in Brief: Controls Over Billing
               Customers and Collecting Revenue for Work
               Performed at Corpus Christi Army Depot
What We Did                                           What We Recommend
We evaluated the controls for billing customers       We recommend that the Commander, CCAD:
and collecting revenue at Corpus Christi Army           • establish policies and procedures to
Depot (CCAD) and the Defense Finance and                    improve the controls over recording
Accounting Service (DFAS) Rock Island.                      employee and contract labor;
                                                        • establish a policy to ensure that direct
What We Found                                               materials are tracked and ordered against
The controls at CCAD did not ensure that it                 the projects for which they are used;
properly billed customers for direct labor and          • require the use of the Automated Parts
materials. Specifically:                                    Ordering application for ordering
   • Personnel did not always record                        material, except for material needed for
       employee direct labor correctly or have              indirect projects; and
       adequate documentation to support it.            • establish a policy to ensure that all
   • Supervisors did not always segregate the               journal vouchers are fully supported
       timekeeping duties.                                  with clearly identified documentation.
   • Employees did not certify the time they          We recommend that the Director, DFAS:
       worked on projects.                              • modify the SIFS billing and collection
   • Supervisors did not always have                        Financial Transaction Accounting Codes
       adequate oversight of contract labor                 to comply with the DoD Financial
       hours, which personnel did not always                Management Regulation, and
       record correctly.                                • develop procedures to ensure that SIFS
   • Production controllers did not track                   accounting transactions properly post to
       material usage and did not consistently              the general ledger.
       order material against the correct
       projects.                                      Client Comments and Our
   • Parts managers did not consistently              Response
       review orders with a Depot Overhaul            The Commander, CCAD agreed with our
       Factor of 0.00000 for accuracy.                recommendations but did not fully address the
   • Journal voucher preparers did not always         controls established to ensure accurate recording
       have adequate or clearly identified            of contract labor. The Director, DFAS
       documentation to support cost transfers        Columbus disagreed with modifying the
       between projects.                              Financial Transaction Accounting Codes and
                                                      partially agreed with developing procedures to
DFAS Rock Island did not ensure that billing
                                                      ensure that general ledger transactions are
and collection transactions posted correctly to
                                                      properly posted. The CCAD and DFAS
the general ledger. Specifically, the Standard
                                                      comments were partially responsive. We
Industrial Fund System (SIFS) incorrectly
                                                      request that the Commander and the Director
posted general ledger transactions to unearned
                                                      provide additional comments by January 16,
revenue when it generated bills or received
                                                      2009. Please see the recommendations table on
collections.
                                                      the back of this page.

                                                  i
               Report No. D-2009-033 (Project No. D2007-D000FI-0164.000)
                                   December 16, 2008

Recommendations Table
Client                          Recommendations            No Additional Comments
                                Requiring Comment          Required
Commander, Corpus Christi       A.4.                       A.1., A.2., A.3.
Army Depot                                                 B.1., B.2., B.3.
Director, Defense Finance and   C.2.                       C.1.
Accounting Service Columbus

Please provide comments by January 16, 2009.




                                          ii
Table of Contents

Results in Brief                                                           i

Introduction                                                               1

       Objective                                                          1
       Background                                                         1

Finding A. Controls Over Direct Labor                                      5

       Recommendations, Client Comments, and Our Response                 12

Finding B. Controls Over Direct Material                                  15

       Recommendations, Client Comments, and Our Response                 19

Finding C. Defense Finance and Accounting Service Controls Over Billing
 Customers and Collecting Revenue                                         21

       Recommendations, Client Comments, and Our Response                 24

Appendices

       A. Scope and Methodology                                           27
             Review of Internal Controls                                  27
             Prior Coverage                                               29
       B. Control and Sample Testing                                      31
       C. Control Weaknesses Over Direct Labor                            35

Client Comments

       Corpus Christi Army Depot                                          37
       Defense Finance and Accounting Service                             41
       Army Materiel Command                                              43
Introduction
Objective
The objective was to evaluate the controls for billing customers and collecting revenue
for work performed at Army Working Capital Fund maintenance depots in the Industrial
Operations activity group. Specifically, we identified relevant processes and evaluated
the controls for recording and accumulating direct labor and direct materials and for
billing customers and collecting the resulting revenue at selected maintenance depots.
This report addresses controls over billing customers and collecting revenue for work
performed at Corpus Christi Army Depot (CCAD). This is the first of two reports. The
second report will address controls at Tobyhanna Army Depot. See Appendix A for a
discussion of the audit scope and methodology and the prior audit coverage directly
related to our audit objective.

Background
Corpus Christi Army Depot
There are five maintenance depots in the Army Working Capital Fund Industrial
Operations activity group: Anniston Army Depot, Alabama; Corpus Christi Army Depot,
Texas; Letterkenny Army Depot, Pennsylvania; Red River Army Depot, Texas; and
Tobyhanna Army Depot, Pennsylvania. The Army Materiel Command manages the
maintenance depots in the Industrial Operations activity group through the Life Cycle
Management Commands. CCAD reports to the Aviation and Missile Life Cycle
Management Command. CCAD overhauls and repairs helicopters and related
components for the Military Services and Foreign Military Sales customers. It also resets
equipment returning from operations in Iraq and Afghanistan in support of the Global
War on Terror.

During FY 2007, CCAD had 1,651 active overhaul and repair projects. As of
September 30, 2007, the 1,651 active projects had approximately $1.7 billion of
authorized funds with cumulative costs of about $1.2 billion. The cumulative costs
included material, labor, and overhead. For FY 2007, CCAD generated revenue totaling
about $1.1 billion from the sale of services.

CCAD charged customers a fixed-price for all programs except for cost reimbursable
programs such as crash battle damage, Foreign Military Sales, and new programs for
which CCAD had not established historical data. Fixed-price projects comprised
approximately 63 percent (1,036) of the 1,651 active projects. CCAD established annual
cost estimates for fixed-price programs to provide customers with predictable costs. For
cost-reimbursable programs, CCAD charged customers for direct labor and direct
materials.




                                           1
Defense Finance and Accounting Service Rock Island
Defense Finance and Accounting Service (DFAS) Rock Island (DFAS-RI) (Rock Island,
Illinois) was responsible for monthly, quarterly, and yearly data processing for a variety
of Army Materiel Command installations. DFAS-RI performed billing and collection
functions for CCAD. In July 2008, DFAS Columbus (DFAS-CO) (Columbus, Ohio)
assumed this function because of an FY 2005 Base Realignment and Closure
Commission recommendation.

Standard Industrial Fund System
CCAD uses the Standard Industrial Fund System (SIFS) as its accounting system. SIFS
is a subsystem of the Standard Depot System. SIFS consists of five interrelated modules:
Cost Accounting, General Fund, Financial Inventory Accounting, Methods and
Standards, and the Automated Time Attendance and Production System (ATAAPS).
These modules process, measure, and account for workforce and production costs in the
Army Operating Commands, including the Aviation and Missile Life Cycle Management
Command. We reviewed three modules: Cost Accounting, Methods and Standards, and
ATAAPS. The Cost Accounting module accumulates costs at the project level and
allows management to monitor performance on specific projects. Methods and
Standards is a functional interface module that provides for the collection, evaluation, and
application of operational and managerial data relating to work-hours and units of work.
It provides daily labor and production accounting and daily reporting by individual and
work center. It provides similar information weekly by work center. The interface
module validates labor and production data through edit and control procedures. The
ATAAPS module reports all hours worked on projects and the production counts
associated with those projects. DFAS Indianapolis (Indianapolis, Indiana) performs SIFS
program management. The Army plans to replace SIFS with the Logistics Modernization
Program (LMP) system at CCAD in March 2009. The Army will not replace SIFS with
the LMP system at all Army Working Capital Fund maintenance depots until FY 2010.

Cost Accumulation
The objective of cost accounting is to accumulate and record all elements of costs
incurred to complete a unit of work on a specific project. In terms of depot maintenance,
costs can take one of three forms: direct material, direct labor, and overhead. 1 This audit
focused only on direct material and direct labor. Direct material includes all materials,
such as components and parts, readily and practically identified with specific projects.
This includes the cost of material used in process cost-type operations such as cleaning,
plating, and painting. Direct material is of sufficiently large value to be worth charging
to the job and identified as a major cost element of the finished product or service. Direct
labor transforms various components into a finished product or service. The labor must
be directly attributed to the project. Otherwise, the labor is indirect labor and considered
overhead.



1
 Overhead includes, but is not limited to, labor and materials that cannot be directly attributed to a specific
project. These are known as indirect labor and indirect materials.


                                                       2
CCAD personnel, in coordination with the Army Materiel Command and the Aviation
and Missile Life Cycle Management Command, conduct an annual fixed-price exercise
during which cost estimates for overhaul and repair projects are determined two years in
advance. Historical ordering data comprised these cost estimates. Cost estimates help
determine the costs the commands can charge customers.




                                            3
4
Finding A. Controls Over Direct Labor
Controls at CCAD did not ensure that personnel correctly recorded direct labor hours at
the seven work centers that we reviewed. Specifically:

   •   supervisors at four work centers did not always have clearly documented support
       for the direct labor costs of their employees,
   •   timekeeping duties at one work center were not properly segregated,
   •   employees did not certify the time they worked on projects, and
   •   supervisors at three work centers did not always have adequate oversight of
       contract labor hours.

As a result, CCAD may have incorrectly billed customers for work performed on cost
reimbursable projects. Additionally, CCAD did not have reliable data to forecast
personnel requirements or estimate direct labor costs when establishing fixed-price
programs. We recommend that the Commander, CCAD establish policies and
procedures to improve the controls over recording employee and contract labor.

CCAD Direct Labor
DoD Financial Management Regulation (FMR), volume 4, chapter 20, “Job Order Cost
Accounting,” January 1995, defines direct labor as labor used to transform various
components into a finished product or service. At CCAD, direct labor was used to
overhaul and repair helicopters and their components for the Military Services and for
Foreign Military Sales customers. During FY 2007, CCAD had 2,372 direct labor
employees and 417 contract employees who charged about $162.8 million and
$20.2 million, respectively, in direct labor costs to CCAD projects. At the end of
FY 2007, CCAD had 108 direct labor work centers. We reviewed the controls over
direct labor at seven work centers from the four CCAD primary production directorates.
We identified and tested controls at five work centers, which had 238,139 direct labor
hours and $10.1 million in direct labor costs. We also identified and tested controls at
two work centers, which CCAD created in FY 2008. The table in Appendix B identifies
the work centers that we selected and their organizational names.

DoD FMR, volume 11B, chapter 13, “Cost Accounting Requirements for Depot
Maintenance,” October 2002, requires a labor distribution system to charge all direct
labor hours and costs to the applicable projects. CCAD uses ATAAPS to report all hours
worked on projects and the production counts associated with those projects. CCAD uses
historical data on direct labor to forecast personnel requirements and to estimate direct
labor cost to support the planned workload.

CCAD Regulation 37-17, “Maintenance Accounting Reporting Systems Manual,”
November 17, 2006, provides guidance and establishes policies, procedures, and
responsibilities, including definitions and requirements, for performing uniform cost
accounting and reporting. The regulation requires that supervisors or timekeepers report


                                            5
all costs incurred, “man-hours” expended, and report production and work unit counts
related to specifically assigned project numbers designated for use in the work centers.
The regulation also states that employees should report or relate all man-hours and costs
incurred in accordance with the specific definitions of the assigned projects and use only
those projects applicable to the functional work area or work center to which the
employee is officially assigned.

Control Activities Over Direct Labor
The Government Accountability Office, “Standards for Internal Control in the Federal
Government,” November 1999, states that control activities help ensure that actions are
taken to address risks and that they are an integral part of an entity’s accountability for
stewardship of Government resources and for achieving effective results. Control
activities include approvals, verifications, and maintenance of records, which provide
evidence of the control activities. Certain control activity categories are common to all
agencies, including segregation of duties, accurate recording of transactions and events,
and appropriate documentation. Management should divide key duties and
responsibilities among different people to reduce the risk of error or fraud. No one
person should control all key aspects of a transaction. In addition, all transactions and
other significant events need to be clearly documented, and the documentation should be
readily available for examination. Control activities help to ensure that all transactions
are completely and accurately recorded.

CCAD did not have a standard process to record direct labor, and the compensating
controls developed by work center supervisors did not ensure that direct labor was
accurately recorded in ATAAPS. CCAD Regulation 37-17 did not include a standard
process with effective control activities to record direct labor. Specifically, control
weaknesses existed at each work center in one or more of the following areas:

   •   recording employee labor,
   •   documenting employee labor,
   •   segregating timekeeping duties,
   •   certifying employee time, and
   •   approving and recording contract labor.

The table in Appendix C summarizes the control weaknesses by work center.

Employee Direct Labor
Recording Employee Labor
Personnel did not correctly record employee direct labor at four work centers that we
reviewed. Personnel at two work centers did not record the actual hours that employees
worked on individual projects. Instead, they improperly assigned the employee time
among projects. At two other work centers, the direct labor charged to projects did not
always agree with the source documents.




                                             6
Plating Branch
The employees at the Plating Branch (first shift) frequently worked on multiple projects,
which they listed on their daily timesheets. However, when the employees worked on
multiple projects within the same day, they did not record the time that they worked on
specific projects on their timesheets, and they did not consistently record the related
operation codes. 2 This made it difficult for the timekeeper, who prepared a daily
summary as the source document for entering the employee time into ATAAPS. The
timekeeper generally assigned the total number of hours an employee worked to only one
project, regardless of the specific projects that an employee worked on during the day.
For example, on December 5, 2007, four employees listed 39 unique projects on their
timesheets, but the timekeeper did not charge time to 38 projects. Instead, the timekeeper
charged one employee’s time to one of the seven unique projects the employee listed on
his timesheet, and he charged each of the other three employees’ time to projects that
they did not list on their individual timesheets. During the 2-week pay period ending
September 15, 2007, the same timekeeper recorded 319 direct labor hours for five
employees. We compared the employees’ timesheets with the time charges recorded in
SIFS and identified 143 instances when the employees listed a project on their
timesheets, but the timekeeper did not charge their time to the projects. In contrast, there
were 10 instances during the same period when the same timekeeper charged time to
projects that the employees did not list on their timesheets.

One supervisor at the Plating Branch (first shift) explained that the work center did not
have the personnel that would be required to record the actual time worked on each
project because of the significant number of projects that the employees may work on
during the day. Employees were not always aware when projects had closed and the
number of projects that the employees worked on during a day increased the complexity
of the timekeeping for the projects. The supervisor also stated that the timekeeping
responsibilities for the three shifts already required about 4 hours per day.

Engine Test Branch
The supervisor at the Engine Test Branch improperly charged employees’ time to
projects that had unused hours accumulated against them. The supervisor recorded the
actual projects that the employees worked on in a daily log. However, near year-end, the
supervisor charged the employees’ time to projects with unused hours regardless of
whether the employees worked on the projects during the day that he charged the
projects. For example, during the 2-week period ending December 8, 2007, the
supervisor assigned 134 hours for five employees to 12 projects that he did not record in
his daily log on that day. From September 2, 2007, through September 15, 2007, the
supervisor charged 157 of 269 direct labor hours for five other employees to projects that
were not recorded in the daily log on that day. The supervisor explained that each unit




2
 Operation codes are assigned to identify a specific task, operation, or standard. Employees may perform
multiple tasks within the same day. For example, one employee recorded 17 unique projects and
6 different operation codes on his timesheet for December 5, 2007.


                                                    7
required a standard number of labor hours to complete. When a project was to be closed
and fewer hours than planned were charged for employees in his work center, he charged
additional direct labor hours to the projects.

DoD FMR, volume 11B, chapter 13, requires that all direct labor hours and costs be
charged to the projects that benefited from the direct labor. The regulation allows the
agencies to allocate employee hours to projects based upon industrially engineered
standards if the employees perform similar work. The regulation also states that the labor
hour allocation is to be properly adjusted for variances to arrive at the actual hours
worked. However, although the regulation allows labor hours to be allocated between
benefiting projects, it does not suggest that employee time can be distributed across
projects without regard to when employees performed the work.

At two work centers, the direct labor charged to projects also did not always agree with
the source documents. We found discrepancies with 34 hours that two UH-60/AH-64
Transmission Assembly Branch employees charged for September 2, 2007, through
September 15, 2007, and 20 hours that three OH-58/AH-1W/UH-1N Transmission/Gear
Box Assembly Branch employees charged for November 26, 2007, through December 8,
2007. For example, personnel charged 16 hours in ATAAPS for one employee in the
UH-60/AH-64 Transmission Assembly Branch to a different project than the project
recorded on the source document. The supervisor stated that she was told that she could
no longer charge time to the original project and had to charge time to a different project.

Because the controls did not ensure that personnel correctly recorded employee time in
ATAAPS, the direct labor charged to the projects was not always the actual hours that the
employees worked on the projects. As a result, CCAD may have inaccurately charged
customers. Additionally, CCAD did not always have reliable data to forecast its
personnel requirements and estimate the direct labor costs. CCAD should establish a
policy and implement procedures that ensure personnel charge the actual hours that
employees work to the correct projects. The procedures should consider the timekeeping
challenges of those work centers where employees work on numerous projects within the
same day or whose time may be allocated to projects based on industrially engineered
standards and the actual hours the employees worked.

Documenting Employee Labor
The supervisors in work centers used various forms of source documents to support direct
labor charged by employees to projects. Source documents included timesheets, work
logs, rosters, and assignment sheets. The source documents varied between the work
centers because CCAD Regulation 37-17 did not require standard forms to support the
employees’ direct labor charges.

Supervisors at four work centers did not have source documents or the source documents
lacked accurate or sufficient detail to support the direct labor hours employees worked.
The Engine Test Branch supervisor did not identify the employees or the time they
worked on specific projects in his daily logs. Employees in the Plating Branch (first
shift) did not identify the time they worked on specific projects when they worked on


                                             8
multiple projects within the same day, and the timekeeper did not always include the
projects that the employees listed on their timesheets in the daily summaries that he
prepared when entering the employees’ time into ATAAPS. At the Cross Service
Aircraft Production Branch #2, the supervisor could not provide daily job assignment
sheets to support the employee labor for the week ending September 8, 2007, because he
did not start using the daily job assignment sheets until after September 10, 2007.
Furthermore, the supervisor of a fourth work center did not have source records for the
time that employees worked on projects.

Without sufficiently detailed source documents, there was an increased risk that direct
labor was inaccurately recorded and charged to customers. CCAD Regulation 37-17 did
not stipulate acceptable forms of source documentation. CCAD should issue a policy that
defines acceptable forms of documentation and requires supervisors to use this
documentation.

Segregating Timekeeping Duties
Management in the Engine Test Branch did not properly segregate timekeeping duties at
one work center. Employees did not individually record their daily time charges to
projects either manually on a timesheet or in ATAAPS. Instead, the supervisor
performed all timekeeping duties for the employees in his work center. The supervisor
recorded the employee time and attendance as well as the projects that the employees
worked on. The supervisor also entered the employee time into ATAAPS and certified
that it was correct. As the only person performing the timekeeping duties, the supervisor
was solely responsible for the accuracy of the labor hours entered into ATAAPS. CCAD
Regulation 37-17 did not clearly define or segregate the responsibilities of personnel with
timekeeping duties. CCAD should establish a policy to ensure that personnel maintain
effective control through the proper segregation of timekeeping duties.

Certifying Employee Time
DoD FMR, volume 11B, chapter 13, states that supervisors have responsibility for the
validity of the timekeeping records. It also states that employees are responsible for
certifying that the time charged to a project is correct. DoD FMR, volume 8, chapter 2,
“Time and Attendance,” April 2007, also requires that employees attest to the accuracy of
their time and attendance. Employees may document the attestation in writing or
electronically with the employee signature or initials affirming that the information is
correct.

The employees at the seven work centers did not certify the time charged to the projects
or attest to the accuracy of their time and attendance. Although Plating Branch (first
shift) employees listed the projects they worked on and their regular and overtime hours
on daily timesheets, they did not record the time that they worked on individual projects
when working on multiple projects. Employees in the Mechanical Branch entered their
own regular time into ATAAPS, but they did not enter the overtime or compensatory
time worked on projects. Additionally, the six supervisors that we observed certifying
time did not verify the accuracy of the projects or the time charged by employees to the
projects. The supervisors verified the number and the type of hours entered into


                                             9
ATAAPS, such as the regular hours worked or leave taken. However, the supervisors did
not compare the projects or the hours charged to the projects against source documents as
part of the certification process. Because CCAD Regulation 37-17 did not require the
employees to certify the time worked on individual projects, supervisors, work leaders,
timekeepers, and project managers had increased opportunities to distribute or move
labor hours between projects. As a result, there was a greater risk that CCAD may have
inaccurately billed customers. CCAD should require employees to certify the time they
worked on individual projects.

Contract Direct Labor
Supervisors did not always have adequate oversight of contract labor hours, which
personnel did not always record correctly. Two contractors (Lear Siegler Services, Inc.
[LSI] and L-3 Vertex Aerospace) performed direct labor on the helicopters and
components at CCAD. L-3 Vertex Aerospace personnel also supported CCAD by
working in the Production Management and Analysis (PM&A) Office. L-3 Vertex
Aerospace personnel performed administrative tasks, such as entering contract
employees’ time into ATAAPS and preparing journal vouchers (JVs) to charge specific
projects for the cost of contract direct labor.

Approving Contract Labor
Supervisors in three work centers lacked sufficient oversight of the contract labor charged
to projects. Before the process changed in the Aircraft Production Directorate, work
center supervisors were responsible for preparing timesheets for the LSI contract
employees in their work centers. They sent the timesheets to the directorate office, where
the timesheets were compiled into a combined time record for the directorate. The
supervisor at the Cross Service Aircraft Production Branch #2 did not receive copies of
the timesheets that were prepared for the LSI contract employees in his work center, and
he did not review or approve the timesheets. Around November 2007, the supervisors in
the directorate were given responsibility to enter the LSI contract employees’ time
directly into ATAAPS. The Cross Service Aircraft Production Branch #2 supervisor
stated that he began to review the time entered into ATAAPS. Supervisors at the
UH-60/AH-64 Transmission Assembly Branch and OH-58/AH-1W/UH-1N
Transmission/Gear Box Assembly Branch in the Power Train Production Directorate did
not review and approve LSI timesheets. We also determined that LSI personnel
electronically mailed timesheets for contract employees in other work centers directly to
the L-3 Vertex Aerospace personnel in the PM&A Office without evidence of
supervisory review or approval. 3

Recording Contract Labor
Controls did not ensure that personnel correctly recorded contract labor. We
judgmentally selected eight LSI and seven L-3 Vertex Aerospace contract employees,
and we reviewed 1,059 direct labor hours that 15 contract employees charged during the


3
  The timesheets included employees in work centers other than the seven work centers at which we tested
the controls over direct labor.


                                                   10
2 weeks ending either September 15, 2007, or December 8, 2007. Before the change in
the Aircraft Production Directorate in November 2007, the directorate sent the combined
time records to L-3 Vertex Aerospace personnel in the PM&A Office, who entered the
contract employees’ time into ATAAPS and into an Excel workbook. The L-3 Vertex
Aerospace personnel also queried the data in the workbook to create JVs, which they
used to charge the applicable projects and recover the cost of contract labor from the
customer. We identified 36 hours worked by five LSI contract employees in the Aircraft
Production Directorate that were missing from the Excel data for September 11, 2007.
This occurred because the directorate did not provide its combined time record for that
day in a timely manner to the PM&A Office. Additionally, when we compared the
directorate’s combined time record with the individual work center timesheets, we
identified a total of 32 hours with differences in the projects or the type of hours that
three LSI contract employees had charged. We also identified differences in 15 hours
between the timesheets and the data in the Excel workbook that four contract employees
had charged.

The Contract Project Manager, who was the contracting officer’s representative for both
the LSI and L-3 Vertex Aerospace contracts, acknowledged in February 2008 that the
process lacked accountability and was inadequate for the demands placed upon it. CCAD
had weak controls over contract labor because supervisors did not have formal policies or
established procedures to record contract labor. As a result, the contract hours charged to
the projects were not always the actual hours contractors worked, and CCAD may have
inaccurately charged customers for the contract labor.

In March 2008, the Contract Project Manager standardized the process to record contract
labor. He assigned supervisors the responsibility for entering the contract employees’
hours into ATAAPS. His office also implemented an automated process to download
data directly from ATAAPS to prepare JVs to charge the contract labor cost to the
specific projects.

Certifying Contract Labor
The Contract Project Manager stated that he did not require work center supervisors to
certify the contract employees’ hours recorded in ATAAPS. He considered the contract
employees’ time to have supervisor approval when it was entered into ATAAPS.
However, the supervisors at several work centers assigned the responsibility to record the
time to their work leaders. Without supervisory review and approval, personnel could
inaccurately record contract labor and customers could be inaccurately charged. CCAD
should establish policies and procedures to accurately record contract labor.
Additionally, work center supervisors should be required to certify their review and
approval of contract labor because of the significant number of direct labor contract
employees and their cost to CCAD.

Conclusion
Effective controls are critical elements to ensure that direct labor is recorded correctly.
However, CCAD Regulation 37-17 did not establish a standard process with effective
control activities over recording direct labor. As a result, CCAD did not always record


                                             11
direct labor correctly, and CCAD may have incorrectly billed customers for work
performed on cost reimbursable projects. Additionally, CCAD did not have reliable data
to forecast personnel requirements or estimate direct labor cost when establishing
fixed-price programs. The Commander, CCAD should establish policies and procedures
to improve the controls over recording employee and contract labor.

Recommendations, Client Comments, and Our
Response
A.    We recommend that the Commander, Corpus Christi Army Depot, amend
Corpus Christi Army Depot Regulation 37-17 or establish new policies and
procedures to:

   1. Establish a standard process to record employee time that segregates the
responsibilities of timekeeping personnel and identifies acceptable forms of source
documentation. The process should consider those work centers where employees
work on multiple projects within the same day.

   2. Require employees to certify the time worked on individual projects.

   3. Require supervisors to verify that direct labor is recorded correctly.

Corpus Christi Army Depot Comments
The Commander, Corpus Christi Army Depot (CCAD) agreed and stated that CCAD is
revising CCAD Regulation 37-17. The Commander stated the revised regulation will
require segregating timekeeping personnel responsibilities for recording and verifying
each employee’s labor by project to properly account for direct labor. The regulation will
contain a new requirement to use a standard format timesheet in all work centers.
Employees will sign their timesheets, certifying the time worked on individual projects
each day. The Commander stated that the timesheet will serve as a reliable source
document to support automated direct labor project charges. The regulation will also
require supervisors to verify employee hours worked on a project through a comparison
of the employee’s certified timesheet and the detail available in Automated Time
Attendance and Production System (ATAAPS). CCAD will complete the action by
January 1, 2009.

Our Response
The Commander’s comments are responsive, and no additional comments are required.




                                           12
    4. Record contract labor accurately and require work center supervisors to
certify their review and approval of the contract labor charged to projects.

Corpus Christi Army Depot Comments
The Commander, CCAD stated that CCAD completed a business process improvement
effort that recommended fully automating the time accounting process, limited recording
direct labor hours into ATAAPS to designated timekeepers, and standardized the
timekeeping process for contractor labor hours. In March 2008, CCAD standardized the
timekeeping process to allow supervisors for contract personnel to download data directly
from ATAAPS and prepare journal vouchers to charge contract labor cost to the specific
projects. The Commander stated this recommendation has been fully implemented.

Our Response
Although the Commander agreed with the recommendation, we consider his comments
partially responsive. We acknowledge that limiting the recording of direct labor hours in
ATAAPS to designated timekeepers will improve the process to record contractor time;
however, this procedure alone will not ensure that contractor labor is recorded accurately.
The comments also did not explain how the work center supervisors will certify their
review and approval of the contract labor charged to projects. Although the work center
supervisors are able to review the contractors’ time in ATAAPS and are responsible for
what has been entered, the comments did not address the procedures to ensure that the
supervisors reviewed the time entered by the designated timekeeper. In addition, work
center supervisors are not required to prepare the journal vouchers. Personnel in the
Contract Project Manager Office downloaded the data from ATAAPS and prepared the
journal vouchers to charge specific projects rather than the work center supervisors. As a
result, this process does not ensure that the contractor time is recorded accurately in
ATAAPS or that supervisors have reviewed or approved the contractor time. We request
that the Commander, CCAD provide comments on the final report by January 16, 2009,
addressing the specific actions that CCAD has taken to ensure that contract labor is
recorded accurately and that work center supervisors certify their review and approval of
the contract labor charged to projects.

Army Materiel Command Comments
Although not required to comment on the recommendations, the Executive Deputy to the
Commanding General, Army Materiel Command endorsed the CCAD comments on the
recommendations for finding A.

Our Response
We appreciate the Army Materiel Command comments.




                                            13
14
Finding B. Controls Over Direct Material
Controls over ordering direct material at CCAD did not ensure that costs accumulated on
depot maintenance projects were accurate. Specifically, production controllers (PCs) did
not consistently order material against the correct projects, the computer systems did not
always review material orders for accuracy, and some JVs did not have sufficient
documentation to support cost transfers between projects. As a result, CCAD may have
billed customers inaccurately for work performed on cost reimbursable projects. CCAD
also did not have reliable historical data to forecast material usage requirements or
estimate direct material cost when establishing fixed-price programs. We recommend
that the Commander, CCAD:

   •   establish a policy which ensures direct material stored at work centers is tracked
       and ordered against the projects for which it is used,
   •   require personnel to use the Automated Parts Ordering (APO) application when
       ordering materials, and
   •   establish a policy that ensures JVs are reviewed and all documentation is included
       in the JV package.

CCAD Responsibilities
DoD FMR, volume 4, chapter 20, defines direct material as items used to produce a
specific product or to perform a specific service. In FY 2007, CCAD purchased
equipment, material, and supplies, valued at approximately $697.2 million, to overhaul
and repair helicopters and their components for the Military Services and Foreign
Military Sales customers.

CCAD PCs direct and coordinate production efforts to meet customers scheduled
maintenance requirements. As of May 22, 2008, there were 110 PCs at CCAD. PCs
ordered material for overhaul and repair projects using either the Systems Integration and
Management Activity (SIMA) computer application or the APO Web-based application.
SIMA is a menu-driven system that interfaces with the Standard Depot System.
Information entered into SIMA is batch-processed into the Standard Depot System daily.
CCAD began implementing APO in January 2007. APO streamlines and improves the
parts ordering process. APO:

   •   processes information into the Standard Depot System through SIMA;

   •   validates the entry data quality for material to be ordered, which minimizes
       material order rejects;




                                            15
    •   manages and draws down existing internally managed excess stock; and

    •   identifies the “Source of Supply” for the requested material. 4

PCs used Parts Analysis Reports (PARs) to guide how they ordered material. Parts
managers were responsible for approving all material orders, and they used PARs to
monitor program costs. Parts managers created PARs for each project that included all
material, identified by national stock number, which they expected personnel to use in
completing a project. The PAR listed information about the material on the project, such
as the Depot Overhaul Factor (DOF), demand codes, and unit prices. The DOF was the
quantity of a particular part that the parts manager expected personnel to use in the
overhaul or repair of an end item (such as a helicopter). For example, parts managers
expected a project with a national stock number that had a DOF of 1.00000 to use one of
those parts for each end item overhauled or repaired. For new projects, parts managers
assigned the initial DOF to each national stock number listed on the PAR based on
similar projects material usage and input from experienced mechanics. Parts managers
were responsible for updating the DOFs as often as they determined necessary. PCs
typically ordered mandatory replacement material, identified with a DOF at least equal to
1.00000, before work started on a project. PCs based the pre-order quantities on the
number of end items they expected would be repaired and on the DOFs listed on the
PAR. PCs ordered non-mandatory replacement material while the project was in
progress, usually at a mechanic’s request and without regard to the PAR. Non-mandatory
replacement material had a DOF less than 1.00000. Personnel typically transferred
material remaining after the project was completed to other projects that they expected
would use the material.

The PM&A Office managed the JV program at CCAD. The office prepared JVs for a
variety of reasons, to include transferring direct labor and material costs between projects
based on errors identified during the review process. DoD FMR, volume 6A, chapter 2,
“Financial Reports, Roles, and Responsibilities,” March 2002, requires personnel to
include sufficient documentation with all JVs so that the approving official and others,
such as auditors, can understand the reason for each JV and verify that it is proper and
accurate. The dollar amount of the JV must be clearly and readily identifiable within the
supporting documentation. The DoD FMR further states that approval of the JV
constitutes acceptance of the supporting documentation. In FY 2007, CCAD processed
1,350 JVs that explained 82 labor transfers, 1,257 material transfers, and 11 transfers of
both material and labor costs. These JVs transferred approximately 39,300 total direct
labor hours and $110 million of material costs. The PM&A Office checks the JVs for
validity, justification, and approval signature before forwarding the JVs to the CCAD
Finance and Accounting Office for processing in SIFS.




4
 Source of Supply is defined as the Original Equipment Manufacturer partner on contract with CCAD to
deliver material or the associated Source of Supply designated by the Federal Logistics database.


                                                 16
Ordering Material
Controls over ordering material did not ensure that PCs ordered material against the
projects that used it. DFAS Indianapolis Regulation 37-1, chapter 15, “Cost
Accounting,” January 2000, states that accurate cost allocation requires careful cost
identification to the correct periods, organizations, cost pools, and jobs. PCs should order
material against the projects on which they expect personnel to use it. Of the 12 PCs we
observed ordering material, 2 PCs followed practices that did not comply with DFAS
Indianapolis Regulation 37-1. The two PCs kept material on hand at the work centers
and replenished material used so it would be available when needed. However, the PCs
did not track the material usage to a specific project and did not order based on actual
usage. One of these PCs received a CCAD Form 700-11-e, “Shop Material Request,”
from a mechanic listing three projects that needed material. However, when the PC
placed the order, he ordered material for only two of the three projects, and he ordered
different quantities than what the mechanic requested for those two projects. The PC
stated that he ordered material against those projects with the longest interval since he
ordered against them. The other PC judgmentally determined the need for material,
without a request from a mechanic, and ordered against the projects based on the
expected material usage. Neither of the two PCs was able to track which projects
actually used the material. Therefore, when the PCs ordered material, they were unable
to determine which project used it and against which project they should order the
material. Because PCs ordered materials based on elapsed time since the previous order
or expected usage instead of actual usage, customers may have been charged for material
that CCAD personnel did not use on their project. Furthermore, the cost estimates for
overhaul and repair projects, which were based on past ordering patterns and used to set
expected costs for future projects, may have been inaccurate for these two work centers
because material orders were inaccurate. This could result in additional customer
mischarges. CCAD should establish a policy to ensure that personnel track direct
material usage and order direct material in the proper quantities against the proper
projects at work centers that keep material on hand.

Order Approval and Review
Controls over material order approval at CCAD did not ensure that the material orders
were necessary or for the appropriate quantities when PCs used SIMA to order material
with a DOF of 0.00000. APO had systematic controls that notified parts managers that
conflicts existed with the order before the system recorded the order and ordered the
material. APO compared each line of the order to the parameters in the application and
notified the parts managers of any orders not within the established parameters. 5 Parts
managers then either processed the order after determining it was appropriate and
accurate or sent the order back to the PC for verification. SIMA had the same systematic


5
  Parameters included in APO are: (1) the person ordering material must have approval to order material,
(2) material ordered must be listed on the associated PAR, and (3) the order quantity must be in line with
the associated DOF. Orders placed by someone without access to the project, for material not listed on the
associated PAR or for an order quantity not in line with the associated DOF, would create conflicts in APO,
and the parts managers would be systematically notified.


                                                    17
controls; however, it did not notify parts managers about conflicts on orders for material
with a DOF of 0.00000. Of the 12 PCs that we observed, 2 used SIMA to order material
because they believed it was easier to use. CCAD kept SIMA available for use because
SIMA processed all material orders, including those placed in APO, into the Standard
Depot System. Because some PCs used SIMA to order material, SIMA may have
processed, without systematic review, ordering mistakes for which APO would have
alerted the parts managers. This could have led to inaccurate or excess material being
charged to projects.

To better understand the extent of the problem, we selected a sample of 50 projects to
review that contained 62,303 material orders placed from October 18, 2004, through
November 30, 2007. During that time, 9,092 of the 62,303 lines of material ordered had
a DOF of 0.00000. Of these 9,092 lines of material, 6,368 lines with a cost of
$50.2 million were ordered in SIMA and were not systematically reviewed before being
recorded. The other 2,724 lines of material, with a cost of $106.4 million, may have been
ordered in SIMA and may not have been systematically reviewed prior to being recorded.

Because CCAD allowed PCs to order material through SIMA, CCAD did not ensure that
PCs ordered material with a DOF of 0.00000 against the appropriate projects and charged
the material to the correct customers. Furthermore, cost estimates to overhaul and repair
projects, which were based on past ordering patterns and used to set expected costs for
future projects, may have been inaccurate because orders for material with a DOF of
0.00000 were inaccurate. This could result in customer mischarges. CCAD should
require personnel to use APO when ordering material to ensure that APO systematically
reviews all material orders.

Journal Vouchers
Controls over JVs needed improvement to prevent unsupported JVs from being processed
in SIFS. We analyzed a judgmental sample of 27 JVs prepared from October 1, 2006,
through October 31, 2007, to identify whether they were valid, supported, and properly
approved. Of the 27 JVs reviewed, 8 were for labor transfers, 17 were for material
transfers, and 2 were for both labor and material cost transfers. In total, the 27 JVs
transferred 7,113.5 direct labor hours and approximately $6.9 million of material costs
between projects. Most JV documentation supported the proprietary and accuracy of the
cost transfers. However, we identified three JVs (two labor JVs and one material JV) for
which the documentation did not fully support the cost transfer or the dollar amounts
were not clearly and readily identifiable in the supporting documentation. One labor JV
and the material JV did not contain documentation to support 12 direct labor hours and
$0.1 million of material costs. The other labor JV did not contain documentation that
clearly identified the dollar amounts used to support the 216 direct labor hours
transferred. In total, the three JVs did not contain sufficient documentation to support the
transfer of 228 of the 366 direct labor hours and approximately $0.1 of the $0.7 million of
material costs. As a result, funds may have been inappropriately moved between
projects, which may have resulted in CCAD mischarging customers. When we
performed the JV testing in December 2007, the PM&A Office was drafting guidance to
ensure that the JV package contains the appropriate documentation. However, the draft


                                            18
guidance did not state that the PM&A Office must ensure that the supporting
documentation clearly identifies the JV dollar amount. We recommend that the
Commander, CCAD establish a policy that requires the PM&A Office to review
supporting documentation to ensure that the JV dollar amount is clearly identified in the
JV packages.

Conclusion
Effective controls are critical elements to ensure that direct material is recorded correctly.
Because CCAD controls did not always operate effectively, CCAD may have recorded
direct material incorrectly and may have charged customers inaccurately for cost
reimbursable programs. Additionally, CCAD did not always have reliable data to
forecast its material requirements or to estimate direct material cost required to support
fixed-price programs.

Recommendations, Client Comments, and Our
Response
B.     We recommend that the Commander, Corpus Christi Army Depot:

    1. Establish a policy that ensures that personnel track direct material usage and
order proper quantities of direct material against the proper project. The policy
should require that work centers, that keep material in stock, track material usage
to specific projects so when personnel replenish material, it can be charged to the
project that used it. The policy should specify the requirements for replenishing
material used by projects that have been closed.

Corpus Christi Army Depot Comments
The Commander, Corpus Christi Army Depot (CCAD) agreed and stated that CCAD
Command will reemphasize the policies found in CCAD Regulation 725-9, “Parts
Requisitioning,” July 3, 2007, to track direct material usage and to order proper quantities
by project. The regulation requires verifying direct material information on the shop
material request form with the information on the Parts Analysis Report, and that the
material requested does not exceed the total program requirement. The Commander
stated that parts managers, production controllers, and program managers are all involved
in the checks and balances to monitor material cost and usage. They discuss material
usage reports in weekly meetings and review individual non-bench stock items to resolve
any issues with 0.0000 Depot Overhaul Factors. The Commander ensured compliance by
January 1, 2009.

Our Response
The Commander’s comments are responsive. We were unaware of CCAD
Regulation 725-9 at the time of our recommendation. We have since reviewed this
regulation and determined that it will meet the intent of our recommendation if fully
enforced. No additional comments are required.



                                             19
   2. Require personnel to use Automated Parts Ordering when ordering material,
except for material needed for indirect projects.

Corpus Christi Army Depot Comments
The Commander, CCAD agreed and stated that CCAD will use Automated Parts
Ordering when ordering material, except for material used on indirect Production Control
Numbers that CCAD must order through the Standard Depot System. The Commander
added that CCAD will no longer use Automated Parts Ordering after March 9, 2009,
when CCAD implements the Logistics Modernization Program.

Our Response
The Commander’s comments are responsive, and no additional comments are required.

    3. Establish a policy on reviewing journal vouchers that requires review of
supporting documentation to ensure that the journal voucher dollar amount is
clearly identified and included in all journal voucher packages.

Corpus Christi Army Depot Comments
The Commander, CCAD agreed and stated that CCAD Command will reemphasize the
policies found in revised CCAD Regulation 37-17, “Maintenance Accounting Reporting
Systems Manual,” October 9, 2007, for reviews of journal voucher packages by both the
Production Program Managers and the Finance and Accounting Office to ensure validity
and justification. If the Finance and Accounting Office finds the journal voucher data or
documentation insufficient, or does not clearly identify the total dollar amount, it will
request supplemental information from the Production Management and Analysis Office
or the appropriate work center. The Commander ensured compliance by January 1, 2009.

Our Response
The Commander’s comments are responsive. We reviewed the revised CCAD
Regulation 37-17 and determined that it will meet the intent of our recommendation if
fully enforced. No additional comments are required.

Army Materiel Command Comments
Although not required to comment on the recommendations, the Executive Deputy to the
Commanding General, Army Materiel Command endorsed the CCAD comments on the
recommendations for finding B.

Our Response
We appreciate the Army Materiel Command comments.




                                           20
Finding C. Defense Finance and Accounting
Service Controls Over Billing Customers and
Collecting Revenue
The controls at DFAS-RI did not ensure that SIFS posted accounting transactions to the
correct general ledger accounts. Specifically, when DFAS-RI generated a bill or received
a collection, SIFS incorrectly posted accounting transactions to Unearned Revenue
instead of Accounts Receivable. As a result, the Accounts Receivable and Unearned
Revenue general ledger accounts contained inaccurate account balances. DFAS should
modify the billing and collection Financial Transaction Accounting Codes (FTACs) in
SIFS to comply with the DoD FMR. DFAS should also develop procedures to ensure
that SIFS billing and collection accounting transactions properly post to the general
ledger.

DFAS-RI Responsibilities
DFAS-RI performed the billing and collection functions for CCAD. DFAS-RI billed and
collected payments from CCAD customers for work performed on overhaul and repair
projects. DFAS-RI generated bills twice a month that included accumulated costs for the
labor, material, and overhead charged to a project. (Collections are payments received
for those billings.) DFAS-RI processed bills and collections through either the
Operational Data Store or Interdepartmental Payment and Collection system. These
systems interfaced with SIFS, and DFAS-RI used them to send bills to customers and to
receive collections from customers. When a billing or collection transaction occurred,
SIFS posted the accounting transactions to the general ledger. DFAS-RI was responsible
for ensuring that SIFS posted billing and collection accounting transactions to the correct
general ledger accounts. In FY 2007, DFAS-RI processed bills for 2,299 projects, valued
at approximately $1.1 billion, to bill and collect for goods and services that CCAD
provided.

General Ledger Transactions
The SIFS general ledger captures financial information useful for decision making and
meeting external reporting requirements. The U.S. Government Standard General Ledger
Chart of Accounts supports both proprietary and budgetary accounts and classifies them
by general ledger account code. FTACs 6 are four-digit codes used within SIFS to
automatically post billing and collection transactions to the general ledger accounts. The
proprietary accounts used during the billing and collection process were Accounts
Receivable, Revenue from Services Provided, Fund Balance with Treasury, and
Advances from Others (Unearned Revenue).



6
 The FTACs used for billing were 3101, 3102, 3105, 3116, 3128, 3142, and 3151. The FTACs used for
collections were 3500 and 3520.


                                                21
Accounts Receivables are claims to cash or other assets against another entity and are
established at the time revenue is recognized if payment has not been received in
advance. Revenues are amounts earned from normal operations and normally result from
the sale of, or reimbursement for, goods and services. Fund Balance with Treasury is the
aggregate amount of funds in the entity’s accounts with the U.S. Treasury from which the
entity is authorized to make expenditures and pay liabilities. The Fund Balance with
Treasury of a working capital fund is primarily increased through the receipt of
reimbursements from DoD and other entities for work performed on projects. Unearned
Revenue is the amount received in advance for goods and services delivered at a future
date.

Bill and Collection Posting
DoD FMR, volume 4, chapter 3, “Receivables,” April 2007, states that when payment is
not received in advance or at the time revenue is recognized, a receivable should be
recorded. DoD FMR, volume 11B, chapter 11, “Reimbursements and Revenue
Recognition,” October 2002, states that the following accounting entry should be made to
recognize revenue upon partial completion of work on customer projects accepted
without advance payment:

       Debit 1310 Accounts Receivable
              Credit 5200 Revenue from Services Provided

SIFS did not post the correct accounting transactions to the general ledger when
DFAS-RI generated bills. We reviewed 46 sample projects, with a total billed value of
approximately $966.8 million, and found that SIFS incorrectly posted the entire billed
amounts to Unearned Revenue instead of Accounts Receivable. We found that the billing
FTACs used for all 46 sample projects generated the following accounting entry:

       Debit 2310 Advances from Others (Unearned Revenue)
              Credit 5200 Revenue from Services Provided

DoD FMR, volume 11B, chapter 11, states that this accounting entry is to be used to
recognize revenue upon partial completion of work on customer projects accepted with
advance payment. CCAD had not received an advance payment on any of the 46 sample
projects; therefore, SIFS should have debited the billed amounts to Accounts Receivable
instead of Advances from Others (Unearned Revenue). We reviewed all the FTACs
DFAS-RI used for billings and found that SIFS did not populate Accounts Receivable
because the billing FTACs were not set up correctly. As a result, DFAS-RI misstated the
balances of Unearned Revenue and Accounts Receivable in the general ledger by the
amount that DFAS-RI had billed and not collected. As of February 29, 2008, the
uncollected billed amount was approximately $52.9 million.

DoD FMR, volume 11B, chapter 4, “Fund Balance with Treasury, Receivables,
Advances, and Cash Management,” May 2005, states that collections may be caused by
advances from outside sources, performance of reimbursable work, collection of
receivables, sale of assets, and other sources. DoD FMR, volume 4, chapter 3, states that


                                           22
the performing entity should ensure that the accounting system records collection
vouchers in the month they receive collections. The accounting entry to record a
collection of an Accounts Receivable without an advance is:

        Debit 1010 Fund Balance with Treasury
               Credit 1310 Accounts Receivable

SIFS did not post the correct the accounting transactions to the general ledger when
DFAS-RI received a collection. For the 46 sample projects we reviewed, SIFS
incorrectly posted the entire collected amount, approximately $966.8 million, to
Unearned Revenue instead of Accounts Receivable. On each project, we determined that
the collection FTACs generated the following accounting entry:

        Debit 1010 Fund Balance with Treasury
               Credit 2310 Advances from Others (Unearned Revenue)

DoD FMR, volume 11B, chapter 4, states that this entry is used to record advance
payments. DFAS-RI did not receive payments in advance; therefore, SIFS should have
credited the collected amounts to Accounts Receivable. This occurred because the
collection FTACs were not set up correctly in SIFS. However, because the billing FTAC
incorrectly posted the billed amounts to Unearned Revenue, the collections received
correctly reduced the amount entered in Unearned Revenue. DFAS needs to modify the
SIFS billing and collection FTACs to comply with the DoD FMR.

Financial Reporting
DFAS-RI did not have sufficient controls in place to ensure that it accurately reported
SIFS general ledger accounts. For reporting purposes, SIFS systematically transferred
the uncollected debit balance in the Unearned Revenue account to Accounts Receivable
at month end because the system incorrectly debited the billing transactions and credited
the collection transactions to Unearned Revenue. However, SIFS did not transfer the
entire amount from Unearned Revenue at the end of each month. For example, on
February 29, 2008, SIFS transferred approximately $52.9 million to Accounts
Receivable. A credit balance of approximately $3.3 million remained in Unearned
Revenue. We reviewed 20 projects that accounted for approximately $3.2 million of the
$3.3 million credit balance to determine whether each of these projects received advance
funding and should have had a credit balance in Unearned Revenue. We found that the
$3.2 million credit balance in Unearned Revenue on these 20 projects did not represent
advances from others. Instead, the entire amount represented over collections and credit
bills that SIFS should have transferred to Accounts Receivable. 7 This occurred because
DFAS-RI did not comply with the DoD FMR and used the Unearned Revenue account
instead of Accounts Receivable to record the billings and collections. Therefore, as of


7
 An over collection occurs when the amount collected is greater than the amount billed. A credit bill is
generated when a cost transfer occurs or when authorized funds are reduced and funds previously collected
need to be returned to the customer.



                                                   23
February 29, 2008, DFAS-RI misstated the Unearned Revenue and Accounts Receivable
balances in the general ledger by $3.2 million. DFAS needs to develop procedures to
ensure that SIFS posts over collections and credit bills to Accounts Receivable.

Conclusion
DFAS-RI did not have controls in place to ensure that bills generated and collections
received posted to the correct general ledger accounts within SIFS in accordance with the
DoD FMR. The billing and collection FTACs that SIFS used to post accounting
transactions to the general ledger incorrectly adjusted the Unearned Revenue account
instead of the Accounts Receivable account. Although SIFS systematically transferred
the debit balance in the Unearned Revenue account to Accounts Receivable, it did not
transfer the entire amount from Unearned Revenue at month end. The lack of sufficient
controls resulted in misstated general ledger account balances for Accounts Receivable
and Unearned Revenue.

Recommendations, Client Comments, and Our
Response
C.     We recommend that the Director, Defense Finance and Accounting Service:

   1. Modify the Standard Industrial Fund System billing and collection Financial
Transaction Accounting Codes to comply with the DoD Financial Management
Regulation.

Defense Finance and Accounting Service Comments
The Director, Defense Finance and Accounting Service Columbus (DFAS-CO) disagreed
and stated that due to the scheduled migration from the Standard Industrial Fund System
to the Logistics Modernization Program (LMP) at Corpus Christi Army Depot (CCAD)
in March 2009, DFAS cannot modify the Standard Industrial Fund System billing and
collection Financial Transaction Accounting Codes (FTACs). The Director stated that
changing the FTACs will create major accounting and reconciliation problems within the
Standard Industrial Fund System and in the report preparation process. The logic the
system uses to create files for reports would have to be changed and would involve far
more than just a simple change to the FTAC account correlations. The Director stated
that the current DFAS-CO process is to research remaining balances and post the
transactions to the correct general ledger accounts. The Director stated that once CCAD
has implemented LMP, the process will be compliant with the DoD Financial
Management Regulation.

Our Response
The Director’s comments are responsive. Based on further discussions with DFAS
personnel about the nature and extent of required system logic changes and the imminent
system migration to LMP, we agree that the FTACs should not be modified. The




                                           24
Director stated that DFAS-CO has a process in place to research remaining balances and
post transactions to the correct general ledger accounts until the scheduled migration to
LMP.

    2. Develop procedures to ensure that Standard Industrial Fund System posts
billing and collection accounting transactions to the correct general ledger accounts.

Defense Finance and Accounting Service Comments
The Director, DFAS-CO partially agreed and stated that, because of system limitations,
compensating controls are in place to ensure the correct general ledger accounts are
updated. Instead of developing new procedures, DFAS-CO currently researches
remaining balances and corrects the general ledger accounts with system generated
Standard Forms 1080, “Voucher for Transfer Between Appropriations and/or Funds;”
manually generated Standard Forms 1081, “Voucher and Schedule of Withdrawals and
Credits;” systematic file fixes; and write-offs that CCAD identifies.

Our Response
The Director’s comments are partially responsive. The compensating controls in place at
DFAS-CO include additional procedures that were not in place at DFAS Rock Island.
DFAS-CO monitors and researches transactions that remain in the Unearned Revenue
account after the month-end transfer. Over collections are identified and returned to the
customer. However, credit bills remain in Unearned Revenue. As a result, the Accounts
Receivable and Unearned Revenue general ledger accounts still contain inaccurate
account balances. To avoid populating LMP with incorrect general ledger account
balances, DFAS-CO needs to ensure that these accounts are accurately reported before
the Army further deploys LMP. We request that the Director, DFAS-CO provide
comments on the final report by January 16, 2009, stating how DFAS plans to address the
credit bills that remain in Unearned Revenue and ensure accurate CCAD account
balances in the Unearned Revenue and Accounts Receivable general ledger accounts
when the Army migrates from the Standard Industrial Fund System to LMP.




                                           25
26
Appendix A. Scope and Methodology
We conducted this performance audit from April 2007 through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provided a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope of Review
We identified and tested controls over the accumulation of direct labor and direct
material costs at CCAD and controls over the billing and collection processes at
DFAS-RI. We also used a sample of customer projects at CCAD and DFAS-RI to test
the application of controls. We did not trace the cost of direct labor and direct materials
to the actual customers because of the significant time and effort it would have taken.

We identified controls at CCAD and DFAS-RI from July to October 2007. We tested
these same controls and performed sample tests at CCAD in December 2007 and
February 2008. We performed tests of internal controls and sample tests at DFAS-RI in
February 2008.

Review of Internal Controls
We identified internal control weaknesses at CCAD and DFAS-RI as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. Specifically, CCAD did not have effective internal controls for recording and
oversight of direct labor and for ordering direct materials including:

   •   a standard method of recording and entering employee labor, including employee
       certifications;
   •   procedures to ensure that projects were charged for the time worked and time
       worked was appropriately allocated between projects;
   •   a policy and instructions on recording and entering contractor labor;
   •   a policy to ensure that CCAD personnel ordered materials and subsequently
       charged material against the correct project;
   •   procedures to ensure that material orders with a DOF of 0.00000 were
       systematically reviewed; and
   •   a policy to ensure that CCAD personnel reviewed JVs for supporting
       documentation included in JV packages.

Additionally, DFAS did not have procedures to ensure that SIFS billing and collection
accounting transactions properly posted to the correct general ledger accounts. Because
we did not trace the cost of direct labor and direct materials to actual customers, we are
uncertain as to the extent of these problems. However, these problems could be material.
Implementing Recommendations A.1., A.2., A.3., A.4., B.1., B.2., and B.3. will improve



                                             27
CCAD labor recording and certification procedures, material ordering procedures, and JV
preparation and review procedures. Implementing Recommendations C.1. and C.2. will
improve the ability of DFAS to properly record Accounts Receivable and Unearned
Revenue.

Audit Sample Selection
The parameters for the universe of CCAD projects from which we drew an audit sample
were:

   •   all projects initiated before October 1, 2005, that were open at any time between
       October 1, 2005, and April 30, 2007;
   •   all projects initiated from October 1, 2005, through April 30, 2007, that were still
       open on April 30, 2007; and
   •   all projects that were both opened and closed between October 1, 2005, and
       April 30, 2007.

CCAD personnel provided a universe of 3,883 projects valued at approximately
$3.4 billion. We provided this universe to the Quantitative Methods Directorate (QMD),
Office of the Deputy Inspector General for Policy and Oversight, which generated a
sample size of 249 projects in five strata. The five strata were segregated based on the
initial dollar value of each project.

We subsequently reduced the sample size to 50 projects because of the amount of time
required to test controls over cost accumulation, billing, and collection. We reviewed the
first 50 projects in a sequentially numbered sample list provided by QMD. Each project
that we reviewed was in the high dollar value strata. This scope reduction precluded us
from projecting audit results. However, it still allowed us to thoroughly test cost
accumulation controls at CCAD and billing and collection controls at DFAS-RI.

Tests of Controls
To understand the basis for the billings for work performed at CCAD, we identified and
tested how CCAD personnel established and approved projects at the depot, how they
recorded direct labor and direct materials charged to projects, and how they prepared and
approved JVs to transfer costs from one project to another. At DFAS-RI, we tested how
DFAS-RI established bills based on the costs accumulated in SIFS, how they posted
accounting entries to the general ledger for billings and collections, and how accountants
monitored collections and resolved aged receivables. We also reviewed DoD and local
regulations and policies governing proper procedures. We compared the observed
practices with prescribed procedures. See Appendix B for a detailed discussion of the
control tests we performed.

Tests of the Audit Sample
At CCAD, we tested the application of the identified controls for material ordering
against a sample of 50 projects. The 50 projects contained 62,303 material orders. For



                                            28
the sampled projects, we also tested how DFAS-RI established bills, posted bills and
collections, and processed collection receipts. See Appendix B for a detailed discussion
of the tests of the audit sample tests we performed.

Use of Computer-Processed Data
We relied on computer-processed data from SIFS to identify the audit universe of
customer projects at CCAD. We also used SIFS data to test the application of controls on
the audit sample. Assuring ourselves that SIFS processes did not adversely affect the
data would have required a comprehensive evaluation of general and application controls.
Because the Army will be replacing SIFS with the LMP system at CCAD in March 2009,
we did not perform such an audit. Therefore, we recognize and accept the inherent
limitations of SIFS and its system controls in ensuring that billing and collection data
were accurate and complete. Not evaluating the reliability of SIFS data did not adversely
affect our conclusions regarding the CCAD and DFAS-RI controls over billing and
collection processes and procedures.

Use of Technical Assistance
QMD provided technical assistance throughout the sample selection process. We
provided QMD personnel with the audit universe of CCAD projects from SIFS. QMD
used the universe of CCAD projects to select a sample of projects that we used to test
controls at CCAD and DFAS-RI. When we decided to deviate from a statistical sample,
we coordinated with QMD personnel, and they provided us with a numbered sequential
listing of all sample projects that we could use for sample testing and advised us on how
to use the listing. We did not project the results of our review of the sample projects to
the audit universe.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) issued two reports
discussing customer billings and revenue collection at Army Working Capital Fund
maintenance depots. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov.

GAO
GAO-05-441, “Ineffective Oversight of Depot Maintenance Operations and System
Implementation Efforts,” June 30, 2005

GAO-04-615, “Billions Continue to be Invested with Inadequate Management Oversight
and Accountability,” May 27, 2004




                                            29
30
Appendix B. Control and Sample Testing
CCAD Tests of Controls
To test controls over how projects were established, we observed how CCAD personnel
established projects in SIFS and compared what we observed to supporting
documentation provided by CCAD personnel. We reviewed the first 16 projects
established in FY 2008 to verify whether CCAD personnel established projects correctly
in SIFS. We verified that the project numbers contained the correct codes based on local
guidance and the authorized funding and accounting information were correctly entered
into SIFS.

To test controls over how program managers approved projects, we observed how
program managers identified projects needing approval and identified how they verified
that the information was accurate and complete. We reviewed the four CCAD projects
available for acceptance from December 3, 2007, through December 13, 2007. We
verified that the project cost and number of units CCAD would complete agreed with the
information in SIFS.

To test controls over direct labor, we judgmentally selected seven work centers that
performed direct labor at CCAD. We selected the work centers from the four primary
production directorates in order to review a cross-section of CCAD work centers. The
selected work centers performed inspection, repair, overhaul, surface treatment, and
aircraft and components testing. The table identifies the seven work centers and the four
directorates that we reviewed.

                                Selected Work Centers
      Organizational Name           Work Center              Directorate
Cross Service Aircraft Production 526C0          Aircraft Production
Branch #2
Weapons/Fire Control Branch         529C0        Aircraft Production
Mechanical Branch                   534C0        Components Production
Plating Branch (first shift)        552A0        Manufacturing/Process Production
Engine Test Branch                  543B0        Power Train Production
UH-60/AH-64 Transmission            544D0        Power Train Production
Assembly Branch
OH-58/AH-1W/UH-1N                   544J0        Power Train Production
Transmission/Gear Box Assembly
Branch

We observed how personnel with timekeeping duties entered the hours worked by CCAD
employees into ATAAPS, and we observed how work center supervisors certified the
time charges for the work performed. We judgmentally selected 30 CCAD employees
from six of the seven work centers and requested documentation to support employee
time charges for one of two pay periods. For the 2-week pay periods either ending
September 15, 2007, or December 8, 2007, we compared information in the source


                                           31
documentation, in ATAAPS, and in SIFS on the projects that employees worked on and
the hours charged to the projects. We had to limit our analysis of information for
five employees from the Cross Service Aircraft Production Branch #2 work center for
September 4, 2007, through September 10, 2007, because the supervisor was not able to
provide time records for this period. We also were unable to perform an analysis for five
additional employees from the Mechanical Branch work center because the supervisor
did not have source records for the time that employees worked on projects. We also
judgmentally selected eight LSI and seven L-3 Vertex Aerospace contract employees and
compared the projects and number of hours from timesheets, combined time records from
the Aircraft Production directorate, and data from the Excel workbooks used to prepare
the JVs for the same 2-week periods. We were not able to calculate the value of the
errors in recording the CCAD employee direct labor, and we did not quantify the impact
of the errors upon customer billing. Consequently, we limited our evaluation to the
effectiveness of the controls over recording CCAD and contract employees’ direct labor.

To test controls over ordering material, we interviewed 12 PCs, representing 11 different
work centers, and observed them ordering material. We compared each order with
supporting documentation, such as the PAR, to determine the accuracy of the Production
Control Number, national stock number, and quantities ordered. We also interviewed
and observed two material expeditors receiving material into a material storage area. We
compared the material received to the DD Forms 1348, “Issue Release/Receipt
Documents,” to determine whether the national stock numbers and quantities received
were the same as those ordered. Further, we verified that CCAD personnel accurately
charged the material received during our observations to projects on the monthly
accounting records. We limited our evaluation to the effectiveness of the controls over
recording direct material. We were not able to calculate the value of the errors in
recording direct material, and we did not quantify the impact of the errors upon customer
billing.

To test controls over JVs, we reviewed JVs prepared at CCAD to determine whether they
were properly prepared and approved. We judgmentally selected 27 JVs prepared from
October 1, 2006, through October 31, 2007. We verified that they were adequately
supported and were authorized and approved at the proper level. We also verified that
funding was available on the project that the funds were transferred to.

DFAS-RI Tests of Controls
We tested the controls over bills generated for CCAD projects. For the 867 projects
billed during the 2-week billing cycle ending February 15, 2008, we verified that the bills
were loaded correctly into the DFAS Operational Data Store and the Interdepartmental
Payment and Collection system. The DFAS-RI technician and accountant responsible for
CCAD projects used these systems to review the bills for accuracy and to provide the
customer with the bill. We verified that the technician reviewed the bills for accuracy
and the accountant certified the bills for payment in both systems.

To test the controls over posting bills and collections, we reviewed the accounting
transactions that SIFS posted to the general ledger when DFAS-RI generated a bill and


                                            32
received a collection. We judgmentally selected 27 projects billed during the billing
cycle ending February 15, 2008, and determined whether the billed amount for each
project posted to the correct general ledger accounts. We also determined whether the
collected amount for each of the 867 projects posted to the correct general ledger
accounts.

We also reviewed how the DFAS-RI accountant responsible for CCAD monitored
collections and resolved aged receivables. We reviewed the eight projects that the
January 2008 B34M27 Accounts Receivable report identified as delinquent to determine
whether DFAS-RI had taken action to resolve the outstanding debt. Additionally, we
reviewed the February 28, 2008, B34M27 report and determined whether the delinquent
receivables were aged correctly. We also reviewed 20 projects with a credit balance in
the Unearned Revenue general ledger account as of February 28, 2008, to determine
whether DFAS-RI received payments in advance.

CCAD Tests of the Audit Sample
To determine whether controls over material ordering were operating as designed, we
identified all material orders on the monthly accounting reports from October 18, 2004,
through November 30, 2007, for each of the sample projects and compared the material
orders to what personnel should have ordered based on the project’s PAR. Specifically,
we determined whether the parts manager listed the ordered material on the project’s
PAR. If listed on the PAR, we determined whether the quantities ordered were more than
10 units and 10 percent higher than the quantities needed as indicated by the DOF on the
PAR. We conducted site visit interviews based on the results of this analysis and
attempted to determine the causes of the identified variances.

DFAS-RI Tests of the Audit Sample
For 25 sample projects, we verified that SIFS posted the budget accounting transactions
before generating the first bill. We did not perform these two tests on the other
25 sample projects because we did not identify any problems with the first 25 sample
projects.

To test controls for bill and collection posting, we reviewed all the accounting
transactions from each sample project from project inception through October 31, 2007.
We determined whether SIFS posted the accounting transactions to the correct general
ledger accounts when DFAS-RI generated a bill or received a collection. Only 46 of the
50 sample projects contained at least one bill and collection during the period.

To test controls for collection receipt, we reviewed the billed and collected amounts
recorded in SIFS from project inception through October 31, 2007, for 25 sample
projects. We determined whether DFAS-RI collected the billed amounts in full and
attributed the collection to the correct project in SIFS. We verified that the monthly




                                            33
B34M27 Accounts Receivable Report identified any uncollected amounts. We did not
perform the test on the final 25 sample projects because we did not identify any problems
with the first 25 sample projects.




                                           34
Appendix C. Control Weaknesses Over
Direct Labor
Control activities over direct labor were not always effective at the seven work centers
that we reviewed. Control weaknesses existed at each work center in one or more of the
following areas. The table summarizes the control weaknesses by work center.

                       Control Weaknesses by Work Center
              Work Center                    Areas of Control Weakness




                                                                                                                      Employee time certification
                                                                                         Segregation of timekeeping
                                             Recording employee labor




                                                                                                                                                    Contract labor approval
                                                                        Employee labor
                                                                        documentation


                                                                                         duties
Cross Service Aircraft Production
                                                                           X                                          X                             X
Branch #2
Weapons/Fire Control Branch                                                                                           X

Mechanical Branch                                                          X                                          X

Plating Branch (first shift)                 X                             X                                          X

Engine Test Branch                           X                             X                   X                      X
UH-60/AH-64 Transmission Assembly
                                             X                                                                        X                             X
Branch
OH-58/AH-1W/UH-1N Transmission/
                                             X                                                                        X                             X
Gear Box Assembly Branch




                                           35
36
Corpus Christi Army Depot Comments




                  Click to add JPEG file




                                 37
Click to add JPEG file




               38
Click to add JPEG file




               39
Click to add JPEG file




               40
Defense Finance and Accounting Service Comments




                  Click to add JPEG file




                                 41
Click to add JPEG file




               42
Army Materiel Command Comments




                 Click to add JPEG file




                                43
44
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Business Operations, prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Daniel R. Blair
Amy J. Frontz
Carmelo G. Ventimiglia
Stephen C. Borushko
Craig W. Zimmerman
Michael B. Vandesteene
Nathan R. Witter
Melissa J. Humerickhouse
Michael G. Jarvis
Lusk F. Penn
Erin S.-E. Hart
